TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Contractor Employees Have
                     Millions of Dollars of Federal Tax Debts



                                         August 30, 2013

                              Reference Number: 2013-10-082




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


CONTRACTOR EMPLOYEES HAVE                            access to IRS facilities, systems, and data.
MILLIONS OF DOLLARS OF FEDERAL                       TIGTA identified five IRS contractor employees
TAX DEBTS                                            who either did not file required tax returns or
                                                     filed them late but were still granted staff-like
                                                     access. TIGTA also identified 13 IRS contractor
Highlights                                           employees who were tax compliant at the time
                                                     staff-like access was granted but who
Final Report issued on August 30, 2013               subsequently failed to file a required Federal tax
                                                     return while assigned to an active IRS contract.
Highlights of Reference Number: 2013-10-082
to the Internal Revenue Service Deputy               TIGTA identified weaknesses in the IRS’s
Commissioner for Operations Support.                 existing practices that allowed contractor
                                                     employees with Federal tax debts and instances
IMPACT ON TAXPAYERS                                  of nonfiling to go undetected after staff-like
                                                     access was initially granted because the IRS
The IRS requires that its own employees file         does not continuously monitor contractor
their Federal tax returns on time and pay any        employee tax compliance in the same way it
Federal tax debt. However, TIGTA identified          monitors IRS employee tax compliance.
hundreds of employees working for IRS                Instead, the IRS reviews contractor tax
contractors (contractor employees) who were          compliance only every five years or if the
not held to that same standard. The IRS should       contractor employee has longer than a two-year
address tax noncompliance for these contractor       break in service.
employees to ensure that all individuals
employed by the IRS, whether as Federal              WHAT TIGTA RECOMMENDED
employees or contractor employees, are tax
compliant.                                           TIGTA recommended that the IRS continuously
                                                     monitor contractor employee tax compliance
WHY TIGTA DID THE AUDIT                              similar to the way IRS employee Federal tax
                                                     compliance is monitored. In addition, TIGTA
The overall objective of this audit was to           recommended that when revalidating contractor
determine the effectiveness of the IRS’s             employee staff-like access after a break in
background investigation process to identify         service longer than two years, the IRS should
contractor employees who do not file required        complete a tax compliance check. Finally,
Federal tax returns or who owe Federal taxes         TIGTA recommended that the IRS further
but are not currently on a payment plan.             evaluate the contractor employees TIGTA
WHAT TIGTA FOUND                                     identified as potentially noncompliant and
                                                     promptly bring those individuals into compliance
As of June 14, 2012, 691 (5 percent) of the          or remove them from IRS contracts.
13,591 IRS contractor employees reviewed by
TIGTA had $5.4 million in Federal tax debt.          In their response, IRS management agreed with
These Federal tax debts were either agreed to        our recommendations and plans to establish and
by the taxpayers or affirmed by the court. Of the    implement policies to ensure that contractor
691 contractor employees, 352 were not               employee tax compliance is continuously
currently on a payment plan to resolve their tax     monitored and background clearance
debt. Most of the contractor employees               revalidations include a tax compliance
appeared to have been compliant when their           component. In addition, the IRS plans to further
initial staff-like access was granted. However, at   research and carefully evaluate the contractor
least 319 contractor employees had tax debt          employees identified in this report as potentially
assessed after they were granted staff-like          noncompliant and refer them for additional
access, and these employees were not currently       action as appropriate. Finally, the IRS plans to
on a payment plan. Under IRS policy, these           convene a team to fully explore all viable options
319 contractor employees were not eligible for       to address any future tax noncompliance.
staff-like access and should not have had
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 30, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Contractor Employees Have Millions of Dollars
                             of Federal Tax Debts (Audit # 201210029)

 This report presents the results of our review of the background clearance process for contractor
 employees. The overall objective of our audit was to determine the effectiveness of the Internal
 Revenue Service (IRS) background investigation process to identify contractor employees who
 do not file required Federal tax returns or who owe Federal taxes but are not on a payment plan.
 This review is included in the Treasury Inspector General for Tax Administration’s Fiscal Year
 2013 Annual Audit Plan and addresses the major management challenge of Security for
 Taxpayer Data and Employees.
 Management’s complete response to the draft report is included as Appendix IV. Copies of this
 report are also being sent to the IRS managers affected by the report recommendations.
 If you have any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for
 Audit (Management Services and Exempt Organizations).
                                                 Contractor Employees Have
                                           Millions of Dollars of Federal Tax Debts




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Contractor Employees Owe Almost $5.4 Million in
          Federal Tax Debt........................................................................................... Page 5
                    Recommendations 1 through 3:......................................... Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix VI – Management’s Response to the Draft Report ...................... Page 17
                                            Contractor Employees Have
                                      Millions of Dollars of Federal Tax Debts




                                              Background

Federal agencies of the U.S. Government contract with independent contractor companies to
accomplish Government business. Because Federal contractors and their employees are
frequently paid in whole or in part from funds appropriated by Congress, it is imperative that
these entities and their employees remain in full compliance with all Federal tax laws. The
Internal Revenue Service (IRS) collected about $2.4 trillion in Federal taxes in Fiscal Year1 2011
and employed approximately 93,000 Federal employees. In addition to Federal employees, the
IRS also maintains a contractor employee workforce, many of whom work side by side with IRS
employees. As of June 2012, there were approximately 14,500 IRS contractor employees
assigned to active contracts who had “staff-like” access (unescorted access) to IRS facilities
and/or access to sensitive but unclassified data in IRS information systems.
Contractor employees who require escorted or unescorted (staff-like) access to IRS facilities, or
work on contracts that involve the design, operation, repair, or maintenance of information
systems and/or require access to sensitive but unclassified information or security items or
products, must meet the following three eligibility criteria before a full background investigation
will be initiated:
        Must be compliant with Federal taxes. Must have filed all required Federal tax returns
         and paid all taxes due or be current on a payment plan for taxes due.2
        Must be a U.S. citizen or have lawful permanent residency, depending on the contractor
         employee’s risk level.
        For all males born after 1959, must be registered with Selective Service or have an
         exception.
Contractor employees are required to undergo background investigations if their duration of
employment exceeds 180 days. If the duration of employment is less than 180 days or access is


1
  A 12-consecutive-month period, ending on the last day of any month. The Federal Government’s fiscal year
begins on October 1 and ends on September 30.
2
  The IRS considers a contractor to be tax compliant if the individual has filed all required Federal tax returns for the
last three years, and if any tax debt balances are due, the individual must be current on a payment plan or part of an
active bankruptcy proceeding. For information on bankruptcy proceedings, see Internal Revenue Code
Section 5.9.4.18, Installment Agreements and Bankruptcy, Protection of the Taxpayer’s Rights (Jan. 2011). The IRS
protects taxpayer’s rights while the debtor is under the protection of the bankruptcy court. Therefore, an installment
agreement should be regarded as suspended – not terminated – during the pendency of a bankruptcy proceeding. In
a follow-up audit, we plan to review the adequacy of the IRS’s controls over the background clearance process,
including those controls that would prevent granting staff-like access to individuals with significant financial
problems.
                                                                                                                Page 1
                                          Contractor Employees Have
                                    Millions of Dollars of Federal Tax Debts



infrequent (i.e., two to three days per month), and the contractor requires unescorted access, the
contractor employee must meet the previously mentioned eligibility requirements and must
undergo Federal tax compliance and fingerprint check screenings (but does not have to undergo a
complete background investigation). A contractor employee who has been approved for interim
or final staff-like access requires no escort while in an IRS owned or controlled facility.
Approved contractor employees may be granted access to information systems, data, or sensitive
but unclassified information, no matter where the work will be located.
Once staff-like access is granted to an IRS contractor, the background investigation, including
the tax compliance component, is reinvestigated only every five years. In addition, if a
contractor employee takes less than a two-year break in service while under the initial five-year
investigation period, the contractor employee’s access can be “revalidated.” According to
current IRS policy, a revalidation does not require another tax compliance review. However, if a
contractor employee is assigned to a different contract prior to the expiration of the five-year
period and the new duties are at a higher risk level, the contractor employee is required to
undergo a new investigation at the higher risk level. A new tax check is conducted with the new
investigation.
The IRS reported that retired and active Federal employees owed more than $3.5 billion in
unpaid Tax Year3 2011 Federal income taxes. The delinquency rate for Federal workers and
retirees was 3.2 percent in 2011, while the delinquency rate for the Department of the Treasury,
which includes the IRS, was 1.1 percent. The U.S. population as a whole has a delinquency rate
of 8.2 percent. Currently, only IRS employees can be terminated for nonpayment of Federal
income taxes. All IRS employees are required to file and pay Federal taxes accurately and on
time. In order to ensure that IRS employees meet their tax obligations, the IRS matches its
employee database with information available from the Integrated Data Retrieval System4 three
times a year to identify potential employee noncompliance. The IRS Restructuring and Reform
Act of 19985 made mandatory the removal of IRS employees who are found to have intentionally
committed certain acts of misconduct, including willful failure to timely file a Federal tax return
and willful understatement of their Federal tax liability. For IRS employees, failure to timely
pay one’s full Federal tax liability does not require mandatory removal; however, it is still
considered misconduct and may result in discipline up to and including removal.
Recent legislation has been introduced that would require the termination of current tax
delinquent Federal employees and would also prohibit the hiring for Federal employment



3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
4
  The Integrated Data Retrieval System is an IRS computer system capable of retrieving or updating stored
information. It works in conjunction with a taxpayer’s account records.
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                          Page 2
                                          Contractor Employees Have
                                    Millions of Dollars of Federal Tax Debts



individuals with documented serious delinquent tax debts.6 While the IRS does require
contractor employees to be tax compliant at the time an interim staff-like access determination is
made and when a reinvestigation is required on a five-year cycle, there are currently no
requirements for contractor employees to be monitored for tax compliance during this five-year
period.
The IRS maintains a file of all “unpaid assessments.” These unpaid assessments are legally
enforceable claims against taxpayers and consist of taxes, penalties, and interest that have not
been paid or abated. For the purposes of this report, we refer to these unpaid assessments as
Federal tax debts. These Federal tax debts are generally created when a taxpayer files a return
without full payment, an IRS audit identifies additional amounts owed, and the IRS makes
adjustments to correct inaccuracies on a return. In addition, a Federal tax debt can be identified
as a part of IRS enforcement programs. These enforcement programs generally identify
taxpayers who fail to file or timely file required Federal returns, accurately report their taxes, or
voluntarily pay the amount of taxes due. The IRS classifies its total Federal tax debt inventory
into the following four categories:
       Taxes receivable: Assessments that are self-assessed by the taxpayer, an agreed
        examination, a court ruling in favor of the IRS, etc.
       Compliance: Assessments not agreed to by the taxpayer.
       Write-Offs: Assessments that the IRS still has the statutory authority to collect, but for
        which there is no collection potential.
       Memo: Assessments that are not receivables according to Federal financial standards,
        including duplicate assessments, assessments due to a fraudulent return filed by a
        taxpayer, assessments involving many tax periods with related and/or intermingled
        issues, and instances in which an examination/appeal will not be resolved for more than
        one year.
Under Federal accounting standards, Federal tax debts require taxpayer or court agreement to be
considered Federal tax receivables. Because of this distinction, when we refer to Federal tax
debts in this report, we are referring to those debts that require taxpayer or court agreement that
are classified by the IRS as taxes receivable and write-offs. Compliance and memo assessments
are not considered Federal taxes receivable because they have not been agreed to by the
taxpayers or the courts.
We held discussions with personnel and/or analyzed data obtained from the Agency-Wide
Shared Services Office of Procurement in Oxon Hill, Maryland; the Agency-Wide Shared
Services Physical Security and Emergency Preparedness Office in Washington, D.C., and

6
  H.R. 249, Federal Employee Tax Accountability Act of 2013 (Jan. 15, 2013). The bill defines seriously delinquent
tax debt as an outstanding tax debt for which a notice of lien has been filed in public records.
                                                                                                           Page 3
                                     Contractor Employees Have
                               Millions of Dollars of Federal Tax Debts



Florence, Kentucky; and the Human Capital Office in Washington, D.C., during the period
June 2012 through March 2013. We assessed the effectiveness of the controls over the
background investigation process for determining contractor tax compliance, specifically looking
at certain types of Federal tax debt and failure to file required tax returns. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 4
                                           Contractor Employees Have
                                     Millions of Dollars of Federal Tax Debts




                                       Results of Review

Contractor Employees Owe Almost $5.4 Million in Federal Tax Debt
Although the IRS has controls to prevent contractor employees who have Federal tax debts or
who have not filed required Federal tax returns from obtaining staff-like access, we found
weaknesses in the IRS’s existing practices that allowed contractor employees with Federal tax
debts and instances of nonfiling to go undetected after staff-like access was initially granted. We
determined that 691 (5 percent) of the 13,591 contractor employees7 assigned to active IRS
contracts had almost $5.4 million in Federal tax debts. However, the IRS considers a potential
contractor employee to be tax compliant and, therefore, eligible to work on an IRS contract, if
the individual’s tax debt is part of a current payment plan. We identified 352 contractor
employees, with Federal tax debts totaling $2.7 million dollars as of June 14, 2012,8 who were
not on a payment plan to resolve their tax debt. In addition, we identified 13 contractor
employees who were tax compliant at the time staff-like access was granted but who
subsequently failed to file a required Federal tax return. The IRS must immediately address
noncompliance for these contractor employees to ensure that individuals employed by the IRS,
whether as Federal employees or contractor employees, are tax compliant.
These almost $5.4 million in Federal tax debts were almost exclusively associated with
individual income tax returns.9 The majority of the contractor employees (65 percent) had
Federal tax debts from only one calendar year; however, 30 contractor employees had Federal
tax debts from five or more tax years. Figure 1 shows information related to the number of tax
years of Federal tax debt by contractor employee.




7
  We obtained a list of active contractor employees as of October 22, 2012, who received staff-like access on or
before June 30, 2012. There were 910 additional contractor employees listed in this database for which we could
not identify a complete Social Security Number, which was required to perform our data analysis. The IRS began
requiring a complete Social Security Number in April 2011. Due to the incomplete data, we removed these
individuals from our analysis.
8
  Information on these Federal tax debts is as of June 14, 2012, because this is the most recent date that data were
available at the time our analysis was performed. All figures in this report related to the number of contractor
employees, the amount of tax balances due, and the status of contractor employee installment agreements are based
on our analysis of IRS data as of June 14, 2012.
9
  Approximately $500 of the $5.4 million in Federal tax debts was related to Individual Retirement Accounts or
other savings plans.
                                                                                                             Page 5
                                         Contractor Employees Have
                                   Millions of Dollars of Federal Tax Debts



                           Figure 1: Number of Tax Years That
                     Contractor Employees Incurred Federal Tax Debts

                  Number of                  Number of                        Total Federal
                  Tax Years             Contractor Employees                    Tax Debt
          1 tax year                                452                            $1,960,226
          2 tax years                               123                              $968,520
          3 tax years                                60                              $758,770
          4 tax years                                26                            $1,012,066
          5 or more tax years                        30                              $688,936

          Total                                     691                            $5,388,518
         Source: Analysis of the IRS unpaid assessment file. Federal tax debt amounts shown in this
         table include only those that are agreed to by the taxpayer or affirmed by the court. All
         information is current as of June 14, 2012.

Almost 80 percent of the 691 contractor employees with Federal tax debts owed $10,000 or less.
However, 11 contractor employees owed more than $50,000 each. These 11 employees had
Federal tax debts that ranged from around $64,000 to a high of around $184,000, for a total of
$1.1 million in Federal tax debt. Figure 2 shows the distribution of total Federal tax debt by the
size of the various debts.
              Figure 2: Size of Federal Tax Debt for Contractor Employees




                  Source: Analysis of the IRS unpaid assessment file. Federal tax debt amounts
                  shown in this table include only those that are agreed to by the taxpayer or
                  affirmed by the court. All information is current as of June 14, 2012.

                                                                                                      Page 6
                                           Contractor Employees Have
                                     Millions of Dollars of Federal Tax Debts



We determined that of the 691contractor employees who had a Federal tax debt, 339 were on a
payment plan. These 339 had Federal tax debts totaling $2.7 million. The IRS considers a
potential contractor employee to be tax compliant and, therefore, eligible to work on an IRS
contract, if the individual’s tax debt is part of a payment plan. However, 352 of the
691 contractor employees, with Federal tax debt totaling an additional $2.7 million, were not on
a payment plan to resolve their tax debt. Figure 3 shows the number of contractor employees
and whether they were part of a payment plan.
                       Figure 3: Contractor Employee Federal Tax Debt

                                                                       Number of
                                                                       Contractor                Total Federal
                  Type of Assessment                                   Employees                   Tax Debt
 Federal tax debt, on a payment plan                                       339                    $2.7 million
 Federal tax debt, not on a payment plan10                                 352                    $2.7 million
 All Federal tax debts                                                     691                    $5.4 million
Source: Analysis of the IRS unpaid assessment file. Federal tax debt amounts shown in this table include only those
that are agreed to by the taxpayer or affirmed by the court. All information is current as of June 14, 2012.

A contractor employee could have Federal tax debts that originated before he or she was granted
staff-like access, after staff-like access was granted, or both. Of the 691 contractor employees
we identified as having Federal tax debts, at least 556 contractor employees had at least one
Federal tax debt that originated after the contractor employee obtained staff-like access.11 Of
these 556 contractor employees with Federal tax debts that originated after staff-like access was
granted, 319 were not on a payment plan to resolve their tax debt.




10
   We found that our data analysis could not systematically identify individuals who were engaged in bankruptcy
proceedings. Individuals who are part of bankruptcy proceedings are considered tax compliant by the IRS;
therefore, these figures could overstate the number of contractor employees with tax debt that are not tax compliant.
In a future audit, the Treasury Inspector General for Tax Administration plans to look at the broader issue of IRS
policies related to hiring contractor employees with known financial problems.
11
   The IRS maintains two separate systems to track the contractor background investigation process – the Personal
Identity Verification Background Investigation Process database maintained by the Physical Security and
Emergency Preparedness Office, and the Automated Background Investigation System maintained by the Human
Capital Office. For approximately one-third of the contractor employees, the earliest access date on record in the
Automated Background Investigation System was before the earliest access date on record for the Personal Identity
Verification Background Investigation Process database. We used the Personal Identity Verification Background
Investigation Process database to perform our analysis, which is a more conservative approach. Therefore, it is
possible that more than 556 contractor employees with Federal tax debts had debts that originated after they
obtained staff-like access.
                                                                                                             Page 7
                                           Contractor Employees Have
                                     Millions of Dollars of Federal Tax Debts



We selected for further review the 50 contractor employees with the largest Federal tax debts
from the 691 contractor employees we identified as having Federal tax debts. As of
June 14, 2012, these 50 contractor employees had Federal tax debts that ranged from
approximately $24,000 to $184,000, for a total of $2.4 million in Federal tax debts. The Federal
tax debts for these 50 contractor employees can be categorized as follows:
        28 contractor employees (56 percent) had Federal tax debts that originated before
         staff-like access was granted. We confirmed that all 28 contractor employees were on a
         payment plan or engaged in bankruptcy proceedings and, therefore, were considered tax
         compliant at the time staff-like access was granted.12 However, as of June 14, 2012, IRS
         records show that 15 of the 28 contractor employees were no longer tax compliant
         because they were not on a payment plan while assigned to an active IRS contract. In
         addition, 17 of the 28 contractor employees incurred another instance of Federal tax debt
         that originated after access was granted.
        22 contractor employees (44 percent) had Federal tax debts that originated after
         staff-like access was granted. IRS records show that, of these 22, seven IRS contractor
         employees were not on a payment plan as of June 14, 2012.
In addition, we determined that of these 50 contractor employees:
        16 contractor employees (32 percent) had an outstanding Federal tax debt for which a
         notice of lien had been filed in public records.
        12 contractor employees (24 percent) had an outstanding State tax debt for which a notice
         of lien had been filed in public records.
        10 contractor employees (20 percent) had both an outstanding Federal and State tax debt
         for which a notice of lien had been filed in public records.
In addition to the 50 contractor employees previously discussed, we reviewed tax information for
29 contractor employees who had agreed-to Federal tax debts that originated prior to their
staff-like access and who were not on a payment plan as of June 14, 2012.13 Of these 29, we
confirmed that all 29 contractor employees were on a payment plan or engaged in a bankruptcy
proceeding and therefore were considered tax compliant at the time that staff-like access was
granted. We found that six (21 percent) of the 29 were on a payment plan at the time their
staff-like access was granted but subsequently defaulted on their payment plan.

12
   As mentioned previously, we plan to conduct a follow-up audit that will examine contractor employee bankruptcy
and other financial and integrity issues.
13
   In total, we identified 50 contractor employees who had Federal tax debts that originated prior to their earliest
access date recorded who were not on a payment plan as of June 14, 2012. Eleven of the 50 were also in the top 50
contractor employees by total unpaid taxes and, therefore, were previously researched. Of the remaining
39 contractor employees, we selected 29 to research further. We eliminated 10 contractor employees from further
review because their total Federal tax debt was less than $500 as of June 14, 2012.
                                                                                                            Page 8
                                          Contractor Employees Have
                                    Millions of Dollars of Federal Tax Debts



In total, 21 (27 percent) of the 79 contractor employees who we selected for further review were
on a payment plan or engaged in a bankruptcy proceeding at the time staff-like access was
granted but defaulted on a payment agreement after staff-like access was granted. On average,
these contractor employees defaulted on their payment plans 192 calendar days (less than seven
months) after obtaining staff-like access. Some of these contractor employees were responsible
for physical and information technology security activities, such as monitoring security cameras,
checking badges, physical patrol, and security analysis and strategic planning and tactical
support to integrate IRS cybersecurity activities.
Existing practices allowed the Federal tax debts of contractor employees to go
undetected after interim access was granted
There were at least 319 contractor employees assigned to active IRS contracts with agreed-to tax
debts that originated after staff-like access was granted who were not on a payment plan as of
June 14, 2012.14 These 319 individuals had almost $2 million in Federal tax debts. Unlike IRS
employees, contractor employees are not monitored for tax compliance after the initial staff-like
access is granted. According to IRS policies, the tax compliance of contractor employees is
reinvestigated only every five years. In addition, if a contractor employee takes less than a
two-year break in service (was not assigned to an active IRS contract during this period) while
under the initial five-year investigation period, the employee’s staff-like access can be
revalidated. According to current IRS policies, a revalidation does not require another tax check.
Due to limitations in the databases that store information on IRS contractor employees, we could
not confirm that all 319 employees were actively employed on any specific date as IRS
contractor employees as of June 14, 2012. However, these contractor employees were assigned
to active contracts and were, therefore, eligible to work on IRS contracts. The IRS told us that
due to the nature of many of its contracts, contractor employees can frequently change their
status from active to inactive; however, the IRS tracking system cannot tell which contractor
employees are working on any given day.
IRS data show that in the past 10 years more than 400 IRS employees were removed from
employment, retired, or resigned after being investigated for having one or more tax compliance
issues. We asked the IRS for information on how many contractor employees had either been
denied staff-like access or removed from a contract due to tax compliance issues, and we were
told that the systems that track contractor employee background investigations do not capture

14
  As previously mentioned, the IRS maintains two separate systems to track the contractor background investigation
process: the Personal Identity Verification Background Investigation Process and the Automated Background
Investigation Process System. For approximately one-third of the contractor employees, the earliest access date on
record in the Automated Background Investigation Process System was before the earliest access date on record for
the Personal Identity Verification Background Investigation Process. We used the Personal Identity Verification
Background Investigation Process database to perform our analysis, which is a more conservative approach.
Therefore, it is possible that more than 319 contractor employees with Federal tax debts were not in a payment plan
as of June 14, 2012, and had debt that originated after they obtained a clearance.
                                                                                                           Page 9
                                     Contractor Employees Have
                               Millions of Dollars of Federal Tax Debts



information in a way that would allow the IRS to systematically identify how many contractor
employees were denied access or had access revoked due to tax issues.
We determined that some of the 319 contractor employees with Federal tax debts that originated
after staff-like access was granted and who were not on payment plans had access to sensitive
IRS systems such as those:
     Used to research tax cases, track money-laundering and other currency flow activities,
      and investigate leads.
     Used for tracking the status of assets seized during criminal investigations.
     Related to the IRS’s Computer Security Incident Response Center.
Ensuring that all individuals employed by the IRS, whether as Federal employees or as
contractor employees, are tax compliant is essential to the tax administration mission of the IRS.
Existing practices allowed contractor employee nonfiling to go undetected
We identified five contractor employees who had either missing or delinquent (late) Federal tax
returns at the time they were granted staff-like access and 13 contractor employees who were tax
compliant at the time staff-like access was granted but who subsequently failed to file a required
Federal tax return. We also identified 79 contractor employees who appeared to have missing or
late returns at the time they were granted staff-like access. We asked the IRS to research 40 of
these 79 cases. Of these 40 contractor employees, 35 were tax compliant at the time interim
access was granted. However, the IRS confirmed that the remaining five contractor employees
either did not file required tax returns and thus were improperly granted staff-like access due to
human error during the tax compliance screening process or submitted documentation to support
that a return was filed but never actually filed that return. In addition, 13 contractor employees
were tax compliant at the time staff-like access was granted but failed to file a required return
subsequent to receiving their staff-like access. In four of the 13 cases, the contractor employees
went through the revalidation process, but this process does not require a follow-up tax check.
IRS officials explained that when a contractor moves from one contract to another within
five years of the date on which they were granted staff-like access, and less than a two-year
break in service has occurred, a revalidation is completed instead of a complete background
investigation. During this revalidation process, a tax compliance check is not performed. It is
not until five years have elapsed that the IRS specifically determines whether contractor
employees remain tax compliant.




                                                                                           Page 10
                                     Contractor Employees Have
                               Millions of Dollars of Federal Tax Debts



Recommendations
The IRS Chief Human Capital Officer should:
Recommendation 1: Establish and implement policies and procedures to ensure that
contractor employee tax compliance is continuously monitored, similar to the way IRS Federal
employee tax compliance is monitored. The IRS Human Capital Officer should work with the
Chief, Agency-Wide Shared Services, to implement any necessary contractual provisions to
inform contractors of the established policies.
       Management’s Response: The IRS agreed with this recommendation and stated that
       it will establish and implement policies to ensure that contractor employee tax
       compliance is continuously monitored. The IRS indicated, however, that currently there
       is no systemic means of continuously monitoring contractor employees’ tax compliance.
       The IRS stated that it can conduct manual tax checks annually and establish a
       cross-functional team comprised of members from the Human Capital Office,
       Information Technology, and Agency-Wide Shared Services to create a systemic process
       that would allow for the matching and monitoring of systems related to the contractor
       background investigations process and the Integrated Data Retrieval System. Further, the
       IRS stated that once a systemic process is developed, it can conduct tax checks more
       frequently, similar to IRS employees.
Recommendation 2: Establish and implement policies and procedures to require that
contractor employee background investigation revalidations, which occur when a contractor
employee has had a longer than a two-year break in service, include a tax compliance
component.
       Management’s Response: The IRS agreed with this recommendation and will
       incorporate tax compliance checks during the revalidation process.
Recommendation 3: Ensure that any contractor employees we identified in this report as
potentially noncompliant are further evaluated and that any contractor employees who are not tax
compliant are promptly brought into compliance or removed from IRS contracts (including
removal of access to IRS facilities, information systems, and taxpayer data).
       Management’s Response: The IRS agreed with this recommendation. The IRS
       secured additional information on the contractor employees identified in this report as
       potentially noncompliant and has begun reviewing the 691 records to determine if they
       are still active contractor employees and whether they are still potentially noncompliant.
       The IRS plans to carefully evaluate each of these cases and refer them for additional
       action as appropriate. Additionally, the IRS will convene a team to fully explore all
       viable options to address any future noncompliance.



                                                                                          Page 11
                                          Contractor Employees Have
                                    Millions of Dollars of Federal Tax Debts



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of our audit was to determine the effectiveness of the IRS background
investigation process to identify contractor employees who do not file required Federal tax
returns or who owe Federal taxes but are not on a payment plan. To accomplish this objective,
we:
I.      Assessed the adequacy of the internal control environment and agency compliance with
        established Federal regulations and agency policies for the IRS contractor employee
        background investigation program as it relates to tax compliance.
        A. Obtained and reviewed current Department of the Treasury, IRS, and other policies
           and procedures for requesting, processing, monitoring, and adjudicating background
           investigations on contractor employees.
        B. Interviewed key IRS personnel from the Office of Procurement; the Contractor
           Security Management Branch, Incident and Contract Management Division, Physical
           Security and Emergency Preparedness Office; and the Personnel Security Office,
           Employment, Talent and Security, Human Capital Office, to identify and document
           their roles and responsibilities in the contractor employee background investigation
           program, and the procedures and practices utilized in executing those responsibilities.
II.     Determined whether background investigations of contractor employees are adequately
        performed to identify any tax compliance issues before contractor employees are granted
        interim access to work on IRS contracts.
        A. Obtained an extract of the Personal Identity Verification Background Investigation
           Process database showing contractor employees assigned to work on active IRS
           contracts who have background investigations that were successfully completed or
           were in progress as of June 30, 2012.1 To determine the reliability of the data, we
           verified whether all records contained a complete Social Security Number, and we
           compared the Social Security Numbers and last names of the contractor employees to
           the Social Security Numbers and name controls on the National Account Profile2 to
           identify Social Security Numbers that are incorrect in Personal Identity Verification
           Background Investigation Process data. There were 910 additional contractor

1
  Upon receiving an interim staff-like access, contractor employees are eligible for unescorted access to IRS
facilities and information systems.
2
  The National Account Profile contains IRS and Social Security Administration information for name control, date
of birth, and date of death for each Taxpayer Identification Number.
                                                                                                         Page 12
                                           Contractor Employees Have
                                     Millions of Dollars of Federal Tax Debts



             employees listed in this database for which we could not identify a complete Social
             Security Number, which was required to perform our data analysis. The IRS began
             requiring a complete Social Security Number in April 2011. Due to the incomplete
             data, we removed these individuals from our analysis. In addition, we identified 95
             incorrect contractor Social Security Numbers and corrected these numbers before
             using the data. Finally, we compared the earliest access date on record in the
             Personal Identity Verification Background Investigation Process database with the
             earliest staff-like access date on record in the Automated Background Investigation
             Process. For approximately one-third of the contractor employees, the earliest staff-
             like access date on record in the Automated Background Investigation Process
             System was before the earliest access date on record for the Personal Identity
             Verification Background Investigation Process database. We used the Personal
             Identity Verification Background Investigation Process database to perform our
             analysis, which was a more conservative approach. We determined that the data were
             sufficiently reliable for our purposes but made the adjustments previously mentioned
             for the limitations we identified.
         B. Evaluated the tax compliance of the contractor employees identified from Step II.A.
             1. Matched the contractor employees who had been granted at least interim
                staff-like access with the IRS unpaid assessments file to identify all contractor
                employees with Federal tax debts as of June 14, 2012.3
             2. Determined whether any tax compliance issues identified were present at the time
                the contractor employee was granted interim access for the IRS contract.
             3. Determined the number of contractor employees and the dollar value of any
                uncollected tax assessments occurring before and after staff-like access approval.
             4. For the 50 contractor employees with the largest total dollar value of Federal tax
                debts, further research was conducted using the Integrated Data Retrieval System4
                and the Consolidated Lead Evaluation and Reporting public records database.


3
  The IRS classifies its total Federal tax debt inventory into the following four categories: 1) taxes receivable:
assessments that are self-assessed by the taxpayer, an agreed examination, a court ruling in favor of the IRS, etc.;
2) compliance: assessments not agreed to by the taxpayer; 3) write-offs: assessments that the IRS still has the
statutory authority to collect, but for which there is no collection potential; and 4) memo: assessments that are not
receivables according to Federal financial standards, including duplicate assessments, assessments due to a
fraudulent return filed by a taxpayer, assessments for which many tax periods are involved with related and/or
intermingled issues, and instances in which an examination/appeal will not be resolved for more than one year. We
analyzed those Federal tax debts that were either agreed to by the taxpayers or affirmed by the court, represented by
categories one and three.
4
  The Integrated Data Retrieval System is an IRS computer system capable of retrieving or updating stored
information. It works in conjunction with a taxpayer’s account records.
                                                                                                            Page 13
                                           Contractor Employees Have
                                     Millions of Dollars of Federal Tax Debts



        C. Evaluated the tax filing history of the contractor employees identified from Step II.A.
             1. Matched the contractor employees with the Individual Master File5 to identify
                contractor employees who had not filed Individual Tax Returns during the three
                prior tax years6 (2009, 2010, and 2011).7
             2. Determined whether any tax compliance issues identified were present at the time
                the contractor employee was granted interim access for the IRS contract.
        D. Determined how the IRS monitors contractor employee tax compliance after granting
           interim access and completion of the full background investigation in order to identify
           tax compliance issues.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Human Capital Office and Physical
Security and Emergency Preparedness Office procedures for background investigations for
contractor employees. We evaluated these controls by interviewing management, reviewing
documentation, and reviewing a judgmental sample of cases.




5
  The Individual Master File is the IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
6
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
7
  These tax years are the only tax years available at Treasury Inspector General for Tax Administration’s data
warehouse. Thus, we limited our analysis to these tax years.
                                                                                                          Page 14
                                   Contractor Employees Have
                             Millions of Dollars of Federal Tax Debts



                                                                            Appendix II

                Major Contributors to This Report

Gregory Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
Heather Hill, Audit Manager
Darryl Roth, Audit Manager
Dana Karaffa, Acting Audit Manager
Gary Pressley, Lead Auditor
Melvin Lindsey, Senior Auditor
Trisa Brewer, Auditor
Evan Close, Auditor
Allison Meyer, Auditor




                                                                                      Page 15
                                   Contractor Employees Have
                             Millions of Dollars of Federal Tax Debts



                                                                           Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
IRS Human Capital Officer OS:HC
Director, Employment, Talent and Security, IRS Human Capital Officer OS:HC:ETS
Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
OS:A:P
Director, Procurement, Agency-Wide Shared Services OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       IRS Human Capital Officer OS:HC
       Director, Physical Security and Emergency Preparedness, Agency-Wide Shared Services
       OS:A:P
       Director, Procurement, Agency-Wide Shared Services OS:A:P




                                                                                   Page 16
                 Contractor Employees Have
           Millions of Dollars of Federal Tax Debts



                                                      Appendix IV

Management’s Response to the Draft Report




                                                           Page 17
      Contractor Employees Have
Millions of Dollars of Federal Tax Debts




                                           Page 18
      Contractor Employees Have
Millions of Dollars of Federal Tax Debts




                                           Page 19
      Contractor Employees Have
Millions of Dollars of Federal Tax Debts




                                           Page 20
